          DEVELOPMENT AND IMPLEMENTATION OF
              A JOINT AMMUNITION SYSTEM


Report No. D-2001-014               December 6, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAIMS                 Conventional Ammunition Integrated Management System
JAMSS                 Joint Ammunition Management Standard System
JLSC                  Joint Logistics Systems Center
OM&S                  Operating Materials and Supplies
                        Office of the Inspector General, DoD
Report No. D-2001-014                                               December 6, 2000
   (Project No. D2000FJ-0069.004)




                  Development and Implementation of a Joint
                            Ammunition System

                                    Executive Summary

Introduction. The Deputy Under Secretary of Defense (Logistics and Materiel
Readiness) needed to consider information in this report before rendering a decision on
the development of a joint ammunition system. This audit was completed as part of our
responsibilities for auditing the DoD financial statements. DoD ammunition represents
more than half (53 percent) of the operating materials and supplies that reported on its
consolidated balance sheet. The total ammunition value accounted for in the FY 1999
DoD Agency-wide financial statements was $36.7 billion.

This report discusses DoD efforts to develop and implement a single joint standardized
ammunition system to report conventional ammunition for logistics and financial
purposes. The former Joint Logistics Systems Center began efforts to develop a
standard ammunition management system in FY 1992. DoD transferred responsibility
for continued development of the system to the Air Force and its Joint Ammunition
System Program Office in January 1996.

Objectives. The overall objective of our audit was to determine the appropriateness of
policies and regulations governing accounting for DoD operating materials and
supplies. For this part of the audit, we evaluated DoD efforts to develop a new joint
standardized ammunition system, the Joint Ammunition Management Standard System,
to report conventional ammunition as part of operating materials and supplies. As part
of the audit, we were to assess the internal control structure as it pertained to operating
materials and supplies. We did not assess the adequacy of DoD controls over
accounting and reporting for operating materials and supplies because this report only
addresses the decision on the development of a new joint ammunition management
system. This project was originally announced under Project No. 0FJ-2103.

Results. DoD spent 8 years and $41.3 million developing a new system for the
logistical and financial reporting of the ammunition inventory. Despite those efforts,
DoD did not produce a working system or even have one near completion. During the
audit, DoD suspended work on the most recent development effort, the Joint
Ammunition Management Standard System, and began considering other alternatives.
However, DoD personnel were not adequately considering an existing Navy system, the
                                             i
Conventional Ammunition Integrated Management System, as one of the alternatives.
Navy personnel indicated that they completed some improvements to the Conventional
Ammunition Integrated Management System in July 2000 and with limited modification
the Conventional Ammunition Integrated Management System would be capable of
satisfying the financial and operational visibility needs of DoD. If DoD continues to
develop a new joint ammunition reporting system, it will spend an estimated $70.7
million through FY 2005 that could otherwise be avoided. Also, in the interim years,
DoD would have to use multiple ammunition systems that are not in compliance with
Federal financial accounting standards. Additionally, DoD would lack a system that
can provide total asset visibility over ammunition. See Finding section for a discussion
of audit results and potential monetary benefits.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Logistics and Materiel Readiness) reconsider the Conventional Ammunition
Integrated Management System as a fourth alternative for the DoD-wide joint standard
ammunition system and provide funding needed to make the improved Conventional
Ammunition Integrated Management System compliant with Federal financial reporting
requirements.

Management Comments. The Principal Assistant Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) partially concurred with the recommendations. He
stated it is possible that the Navy’s Conventional Ammunition Integrated Management
System could be the Department’s enterprise-wide solution for conventional
ammunition logistical and financial purposes. However, before any additional
investments are made in any solution, the mission objective must be examined in the
context of the DoD Chief Information Officer’s portfolio management process and in
accordance with the Clinger Cohen Act. The examination is necessitated by changes
since the program was initiated. Once a determination is made about the mission
objective, an examination of outsourcing and business process engineering will be
conducted. He stated that before recommending and proceeding with any DoD
“enterprise-wide” solution, the Joint Ordinance Commander’s Group is conducting an
analysis to determine if any requirements for a joint system exist. See the Finding
section of the report for a discussion of management comments and the Management
Comments section for the complete text of the comments.

Audit Response. The Principal Assistant Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) comments were responsive. We believe the
proposed actions should result in the best solution for financial and logistic reporting of
ammunition.




                                             ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objectives                                                              2

Finding
     Joint Ammunition System                                                3

Appendixes
     A. Audit Process
         Scope and Methodology                                               9
     B. Report Distribution                                                 11

Management Comments
     Deputy Under Secretary of Defense (Logistics and Materiel Readiness)   13
Background
    DoD reports ammunition in the Operating Materials and Supplies (OM&S)
    account in the Inventory and Related Property, Net line item of its consolidated
    balance sheet. Ammunition comprises a material portion of OM&S for DoD.
    The total reported ammunition for FY 1999, $36.7 billion, represented
    53 percent of the $69.1 billion of OM&S presented on the FY 1999 DoD
    General Fund Financial Statements. The following table shows the value of
    ammunition reported in the OM&S account on the FY 1999 DoD General Fund
    Financial Statements.

              Ammunition and OM&S That DoD Reported in FY 1999
                              (dollars in billions)
              Military                      Ammunition               OM&S
             Department                       Value                  Value

             Army                           $18.9                    $18.9
             Navy                             10.5                    29.3
             Air Force                         7.3                    20.9
             Total                           $36.7                   $69.1


    The audit was performed in support of Public Law 101-576, the “Chief
    Financial Officers Act of 1990,” November 15, 1990, as amended by Public
    Law 103-356, the “Federal Financial Management Act of 1994,” October 13,
    1994. This is the third report resulting from our audit of DoD financial
    reporting of the ammunition portion of OM&S. The first and second reports
    discuss the reporting of Army and Navy ammunition. This report addresses the
    ongoing efforts of DoD to develop and implement a new joint standard
    ammunition system.

    Standardized Systems. In 1989, DoD conducted a Defense Management
    Review based on the dramatically changing DoD environment that included
    reduced forces and budget constraints. The Defense Management Review
    reported that DoD logistics systems were dependent upon numerous systems to
    automate the logistics process functions. Furthermore, each DoD Component
    was using different systems to accomplish the same function, resulting in
    significant duplication. Thus, Defense Management Report Decisions, in
    conjunction with the Corporate Information Management Initiative, required the
    DoD logistics community to consolidate and streamline operations to achieve
    specific cost-saving targets and to standardize, improve, and integrate logistics
    business processes.

    To accomplish that task, the Joint Logistics Systems Center (JLSC) was
    organized in FY 1992. The Military Departments began working with the JLSC
    management to jointly standardize systems. Specifically, the JLSC served as a
    central agent responsible for managing the design, development, and
    implementation of automated information systems for DoD-wide depot
    maintenance, supply management, and ammunition. JLSC received nearly


                                        1
     $2 billion from FY 1992 through FY 1998 to standardize logistics business
     practices and develop standard information systems, including an ammunition
     system. In October 1997, primarily because of limited success in the
     development of those DoD-wide systems, action was initiated to dissolve the
     JLSC. At that time, the JLSC had incurred an estimated $500 million in costs
     for various joint system developments that had been canceled and would not be
     used.

     Standardized Ammunition System. JLSC began efforts to develop a standard
     ammunition management system in FY 1992. In January 1996, the Deputy
     Under Secretary of Defense (Logistics and Materiel Readiness) directed that
     JLSC no longer be responsible for the development of the new joint ammunition
     system, and that the Air Force assume those responsibilities. The authority for
     program content, program approval, and program direction remained with the
     Office of the Deputy Under Secretary of Defense (Logistics and Materiel
     Readiness) while the executive agent was the Air Force. The Air Force Joint
     Ammunition System Program Office assumed responsibility for all ongoing
     efforts to develop a joint ammunition system.



Objectives
     The overall objective of our audit was to determine the appropriateness of
     policies and regulations governing accounting for DoD OM&S. For this part of
     the audit, we evaluated DoD efforts to develop a new joint standardized
     ammunition system, the Joint Ammunition Management Standard System
     (JAMSS), to report conventional ammunition as part of OM&S. As part of the
     audit we were to assess the internal control structure as it pertained to OM&S.
     We did not assess the adequacy of DoD controls over accounting and reporting
     for OM&S because this report only addresses the decision on the development
     of a new joint ammunition management system. See Appendix A for a
     discussion of the scope and methodology.




                                        2
           Joint Ammunition System
           DoD spent 8 years and $41.3 million developing a new system for the
           logistical and financial reporting of the ammunition inventory. Despite
           those efforts, DoD did not produce a working system or even have one
           near completion. During the audit, DoD suspended work on the most
           recent development effort, the Joint Ammunition Management Standard
           System (JAMSS), and began considering other alternatives. However,
           DoD personnel were not adequately considering an existing Navy system,
           the Conventional Ammunition Integrated Management System (CAIMS),
           as one of the alternatives because in May 2000, they determined that the
           Navy system would not satisfy requirements and would not be accepted by
           the Army and the Air Force. Navy personnel indicated that they
           completed some improvements to the CAIMS in July 2000, and with
           limited modification CAIMS would be capable of satisfying the financial
           and operational visibility needs of DoD. If DoD continues to develop a
           new joint ammunition reporting system, it will spend an estimated
           $70.7 million through FY 2005 that could otherwise be avoided. Also, in
           the interim years, the DoD would have to use multiple ammunition
           systems not in compliance with Federal financial accounting standards.
           Additionally, DoD would lack a system that can provide total asset
           visibility over ammunition.



History of Joint System Developments
    Although it invested 8 years and $41.3 million developing a new joint
    ammunition reporting system, DoD had not produced a working system, and the
    effort was not near completion.

    JLSC efforts in the development of the ammunition system ended as of
    December 1995 after incurring about $4.5 million in costs. In October 1996,
    the Air Force Joint Ammunition System Program Office received approval to
    discontinue previous JLSC efforts to adopt an existing ammunition system for
    use throughout DoD and to begin development of an entirely new joint standard
    ammunition system.

    As of March 2000, an additional $36.8 million in costs had been incurred to
    develop JAMSS, the new joint standard ammunition system. The money was
    spent for software development, contractor support, and commercial-off-the-
    shelf equipment. The estimated initial fielding date for a single DoD-wide
    ammunition system slipped from the JLSC initial estimate of January 1995 to
    January 2003 and projected to cost an additional $70.7 million through FY 2005
    to complete implementation and fielding.




                                       3
Changes to Ammunition System Development Plans
     In March 2000, DoD suspended work on development of the JAMSS and began
     considering other alternatives for the development of a standard system. The
     alternatives under consideration focused on development of a new system rather
     than adapting an existing operational system to satisfy the requirement.

     The Air Force Program Executive Officer for Logistics Information Systems
     oversees the Joint Ammunition System Program Office. In March 2000, he
     suspended continued development of the JAMSS because the Military
     Departments could not agree on standard processes for managing ammunition.
     Also, he stated that an assessment would be conducted to validate the
     requirements of a joint ammunition system and to identify alternatives to meet
     the requirements. After an assessment was completed in May 2000, the
     Air Force Program Executive Officer for Logistics Information Systems advised
     us that he was considering the following three alternatives:

              •    discontinue any future development for a new joint ammunition
                   management system and continue use of current Military
                   Department ammunition systems,

              •    continue with current JAMSS development efforts, or

              •    interface all current Military Department ammunition systems
                   together and ultimately develop another totally new system that
                   would incorporate the best business practices of each.

     At the time of the audit, no decision had been made as to which alternative
     would be used. Each alternative being considered contained risks or high costs.
     Also, the alternatives did not include using an existing Navy system, the
     CAIMS.



Risk of Alternatives
     The risk is significant that none of the proposed alternatives would result in the
     timely development and implementation of an ammunition reporting system that
     is compliant with the Chief Financial Officers Act, and any alternative could
     result in significant additional costs.

              •    Continuing the use of Military Department existing ammunition
                   management systems, which are not Chief Financial Officers Act
                   compliant, would result in the inappropriate financial reporting of
                   ammunition. Existing systems cannot capture the historic cost of



                                          4
                  ammunition and would not permit the use of the preferred
                  consumption method of accounting for ammunition.

             •    Continuing with JAMSS development would cost an additional
                  $70.7 million, and it may not necessarily result in a fielded
                  system.

             •    The estimated cost to interface Military Department ammunition
                  systems had not been determined by the time of this audit.
                  Because the alternative entails the development of a totally new
                  system, we believe those costs would be significant. Also, there is
                  a high risk that the system would not be developed on schedule
                  and that it would require additional modification when fielded.

Existing Ammunition System
    The DoD alternatives did not include use of an existing operational ammunition
    reporting system. Specifically, DoD personnel were not considering an existing
    Navy system, the CAIMS, as an alternative. Earlier, in May 2000, DoD
    personnel indicated that the Navy system would not satisfy requirements and
    would not be accepted by the Army and the Air Force.

    During the suspension of additional development of the JAMSS, the Air Force
    Joint Ammunition System Program Office again evaluated CAIMS for use as the
    DoD-wide ammunition system. The CAIMS evaluation resulted in a rating of
    “partially met” or “exceed” on 14 of the 16 categories assessed. The two
    categories that CAIMS did not meet were maintaining maintenance plans and
    providing information on product acceptance.

    After the evaluation, the Program Office concluded that portions of CAIMS are
    viable candidates for possible integration into a joint solution. Additionally, the
    Program Office stated that the methodology the Navy used to improve its system
    could be used to develop a joint ammunition management system. However, the
    Program Office decided not to attempt to adapt the system for use as the single
    DoD-wide ammunition system.

    When we asked the Program Executive Officer for Logistics Information
    Systems why the office did not decide to adapt CAIMS for DoD-wide use, he
    said that CAIMS was not selected primarily because it did not contain certain
    key data such as maintenance and product information. Also, the Program
    Executive Officer stated that he did not believe that the other Military
    Departments (the Army and the Air Force) would be willing to use the system
    because they were not involved in its development.




                                         5
Improvements to CAIMS
    Improvements to CAIMS were completed in July 2000, and Navy personnel
    indicated that with other limited modifications, the CAIMS would be capable of
    satisfying the needs of the DoD ammunition community.

    In November 1993, when JLSC was responsible for developing a joint DoD-
    wide ammunition system, it chose CAIMS as the best ammunition system
    among the Military Departments. The JLSC attempted to redesign CAIMS for
    use as the joint standard ammunition system. However, because CAIMS had a
    mainframe database structure with little flexibility, JLSC believed that
    incorporating the system throughout DoD would be difficult.

    The Air Force Joint Ammunition System Program Office decided in
    October 1996 not to use CAIMS as the standard DoD-wide ammunition system.
    Since that time, the Navy made significant improvements to the system. By the
    end of July 2000, the Navy will have spent an additional $2.8 million on
    improvements to the CAIMS that give it more flexibility and utility. The
    improvements include taking the system from a mainframe database structure to
    an open system environment or relational environment. The improvements
    allow for greater flexibility to interface with existing Military Department
    systems. Navy personnel believe that CAIMS could interface with existing
    systems that provide maintenance and product information and therefore could
    be capable of meeting the 16 requirements for a standard DoD system.

    The purposes of the improvements were to lower the annual maintenance costs
    of the system and to provide any potential user of the ammunition system with
    greater functionality and capability. Navy personnel performed a detailed
    analysis of the improved CAIMS using criteria outlined in the “Guide to Federal
    Requirements for Financial Management Systems.” From that review, the
    Navy estimates that it would take approximately $300,000 and 8 months to
    make CAIMS compliant with the Chief Financial Officers Act and would result
    in a system that provides more accurate ammunition data for financial statement
    reporting purposes.

    DoD should reconsider adapting an existing and nearly compliant system rather
    than incur additional costs to develop another new ammunition system or
    upgrade the existing Army and Air Force systems. Additionally, DoD should
    provide funding to upgrade the Navy system to make it compliant with
    Government reporting requirements.




                                       6
Lack of a Joint Ammunition System
    Because of the unsuccessful development of JAMSS, DoD continued to use
    multiple ammunition systems for financial reporting purposes that are not in
    compliance with Federal financial reporting requirements. Additionally, DoD
    still lacked total asset visibility of ammunition.

    Federal Financial Policy on Valuation. The Military Departments were not
    attempting to redesign their existing systems to make them compliant with
    Government financial reporting requirements. They were awaiting a new joint
    system. As a result, they were using systems that did not capture or report
    ammunition at historic cost, a requirement specified by the Statement of Federal
    Financial Accounting Standards No. 3, “Accounting for Inventory and Related
    Property, Net,” October 27, 1993.

    Total Asset Visibility. In the absence of a joint ammunition system, DoD also
    lacked total asset visibility of ammunition. Total asset visibility is a single
    focused visibility of all assets within the area of operations, en route, and
    pending shipment. Total asset visibility is needed to improve ammunition
    management and provide timely, efficient, and effective support to national-level
    decisionmakers, warfighting commanders in chief, and ammunition managers.

Summary
    Although DoD spent 8 years and $41.3 million to develop and implement a new
    system to manage and report ammunition balances, DoD had yet to produce a
    working system. During that time, the fielding date for the new system slipped
    from January 1995 to January 2003. In its attempt to develop a new joint
    standard ammunition system, JAMSS, DoD encountered problems. As a result,
    DoD management began to review other alternatives for an ammunition system
    that is compliant with Federal financial requirements and provides total asset
    visibility. If DoD decides to continue development of JAMSS, it will spend
    another estimated $70.7 million. Other alternatives that DoD personnel are
    considering will not result in timely fielding of a much needed joint ammunition
    system. CAIMS provides DoD with the most viable alternative that will result
    in a compliant fielded system in the fastest possible time at modest costs. Also,
    using CAIMS will result in a potential monetary benefit of $70.7 million (Air
    Force Research, Development, Test, and Evaluation, account 5703600)
    currently programmed for the continued development of JAMSS. There will be
    some offsetting costs to implement CAIMS in the Army and the Air Force, but
    these costs have not been determined to date. Consequently, DoD should
    reconsider CAIMS as an alternative for the DoD standard ammunition system
    instead of developing another new ammunition system.




                                        7
Recommendations, Management Comments, and Audit
 Response
    We recommend that Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness):

       1. Reconsider the Conventional Ammunition Integrated
    Management System as the fourth alternative for the DoD-wide joint
    standard ammunition system.

       2. Provide the estimated $300,000 of funding needed to make the
    Conventional Ammunition Integrated Management System
    compliant with Federal financial reporting requirements.

    Principal Assistant Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness) Comments. The Principal Assistant Deputy Under
    Secretary of Defense (Logistics and Materiel Readiness) partially concurred
    with the recommendations. He stated it is possible that the Conventional
    Ammunition Integrated Management System could be the Department’s
    enterprise-wide solution for conventional ammunition logistical and financial
    purposes. However, before any additional investments are made in any
    solution, the mission objective must be examined in the context of the DoD
    Chief Information Officer’s portfolio management process and in accordance
    with the Clinger Cohen Act. The examination is necessitated by changes since
    the program was initiated, including changes in the logistics policy and strategic
    objectives and DoD policy on standard systems (that is, standard systems are no
    longer required). Once a determination is made about the mission objective, an
    examination of outsourcing and business process engineering will be conducted.
    Before reengineering and recommending and proceeding with any DoD
    “enterprise-wide” solution, he stated that the Department must first determine if
    the process needs to be changed before information system changes are made.
    He stated that the Joint Ordinance Commander’s Group is conducting an
    analysis to determine what if any joint system requirements exist. He indicated
    he expects the assessment to be completed by March 31, 2001.

    Audit Response. The Principal Assistant Deputy Under Secretary of Defense
    (Logistics and Materiel Readiness) comments met the intent of our
    recommendations. We believe the proposed actions should result in the best
    solution for financial and logistic reporting of ammunition. The amount of
    monetary benefits to be achieved by reconsidering these matters can be
    addressed after the analytical and decision making processes are completed.




                                        8
Appendix A. Audit Process

Scope and Methodology
    To fulfill our responsibilities under Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public
    Law 103-356, the “Federal Financial Management Act of 1994,” October 13,
    1994, we performed audit work necessary to determine the status of DoD efforts
    to develop and implement a single joint ammunition system for reporting
    ammunition in OM&S on the General Fund financial statements. We examined
    $41.3 million in development expenditures. We also reviewed the economic
    analysis used to justify the development costs, memorandums approving the
    development, and budget data used to show the forecasted costs of the
    development.

    We performed the audit by making inquiries of personnel from the Offices of
    the Under Secretary of Defense (Comptroller), Deputy Under Secretary of
    Defense (Logistics and Materiel Readiness), the Navy Ammunition Logistics
    Center, and the Air Force Joint Ammunition System Program Office. This
    financial-related audit was conducted from February through July 2000, in
    accordance with auditing standards issued by the Comptroller General of the
    United States, as implemented by the Inspector General, DoD. The results of
    this audit did not rely on computer-processed data.

    No prior coverage has been conducted on the development of a joint ammunition
    management standard system during the last 5 years.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, the Office of the Deputy Under Secretary of Defense
    (Logistics and Materiel Readiness), the General Accounting Office, the Navy,
    and the Air Force. Further details are available on request.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the achievement of the following goal, subordinate performance goal, and
    performance measures:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)


                                        9
       •   FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and finance systems. (01-DoD-2.5.1.)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following financial management functional
area objective and goal:

       •   Financial Management Functional Area. Objective: Strengthen
           internal controls. Goal: Improve compliance with the Federal
           Managers’ Financial Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the Department of Defense. This report
provides coverage of the financial management and logistics high-risk area.




                                   10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       12
Deputy Under Secretary of Defense (Logistics
and Materiel Readiness) Comments




                   13
14
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

   F. Jay Lane
   Salvatore Guli
   James L. Kornides
   John K. Issel
   Melanie S. Steel
   Eric T. Thacker
